No. 20-905
INDEPENDENT SCHOOL DISTRICT NO. 283,
Petitioner,
v.
E.M.D.H. EX REL. L.H. AND S.D.,
Respondents.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of Amici Curiae AASA, The School
Superintendents Association; Association of Educational Service Agencies; Arkansas Association of Educational
Administrators;
and
Minnesota
Administrators for Special Education in Support of
Petitioner was sent via overnight FedEx to the U.S.
Supreme Court and a digital copy was sent to counsel
for the Petitioner and Respondents by electronic mail
on February 11, 2021. The parties have consented to
electronic service.
Neal Kumar Katyal
Hogan Lovells US LLP
neal.katyal@hoganlovells.com
Counsel for Petitioner
Roman Martinez
Latham & Watkins, LLP
roman.martinez@lw.com
Amy Jane Goetz
School Law Center, LLC
agoetz@schoollawcenter.com
Counsel for Respondent

Also served on:
Hyland Hunt
Deutsch Hunt PLLC
hhunt@deutschhunt.com

Lucas Michael Walker
MoloLamken LLP
lwalker@mlolamken.com

Counsel for Minnesota
Association of
School Administrators

Counsel for National
School Boards
Association, et al.

/s/ Thomas M. Bondy
Counsel of Record

